                            SOCIAL SECURITY
                            Office of the Inspector General


                                     March 7, 2011

The Honorable Xavier Becerra
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Becerra:

On April 15, 2010, at a Subcommittee on Social Security oversight hearing on Social
Security Administration (SSA) field office service delivery, you asked my office to review
the Internet claim (iClaim) application. Specifically, you expressed concern about
whether applicants filing for benefits using the iClaim application were receiving an
appropriate level of service from SSA. To address this concern, we initiated four
reviews of iClaims. These reviews evaluated the iClaim application process for both
retirement insurance and disability benefits and obtained applicants’ and employees’
perceptions on the iClaim application process.

Attached is the report for the first of our four reviews. This review presents applicants’
perceptions of the iClaim process for retirement insurance benefits. I appreciate the
opportunity to share our insights on this important matter, and I am pleased to provide
you the enclosed report. The report addresses the Subcommittee’s concerns and
highlights various facts pertaining to the issues raised during the hearing. To ensure
SSA is aware of the information provided to your office, we are forwarding a copy of this
report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT
Applicant Experiences with Retirement
   Insurance Benefit Internet Claim
             Applications

             A-07-10-20167




              March 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                   Background
OBJECTIVE
The objective of our review was to obtain applicants’ perceptions of the Internet claim
(iClaim) process for retirement insurance benefits (RIB).

BACKGROUND
In response to customer requests for more Internet services and the requirements of the
Government Paperwork Elimination Act of 1998, 1 the Social Security Administration
(SSA) began allowing applicants to complete and electronically sign an online
application for certain Title II Social Security benefits. 2 Specifically, applicants can use
the Internet to file for RIB, aged spouse's benefits, Disability Insurance benefits, and
Medicare-only benefits. 3 In December 2008, SSA implemented the iClaim application,
which modified prior versions of the Internet application. 4

In Fiscal Year (FY) 2010, SSA received approximately 2.5 million RIB applications, with
approximately 920,000 (37 percent) received via iClaim. SSA’s goal is to have
50 percent of RIB applications submitted using the iClaim application by FY 2012.

At an April 15, 2010 hearing before the U.S. House of Representatives’ Committee on
Ways and Means, Subcommittee on Social Security, Congressman Xavier Becerra
asked the Office of the Inspector General (OIG) to review the iClaim application to
ensure applicants filing for benefits using the iClaim application were receiving an
appropriate level of service from SSA.




1
    Pub. L. No. 105-277.
2
    SSA, POMS, GN 00204.055.A.
3
    SSA, POMS, GN 00204.055.B.
4
    SSA, Teleservice Center Operating Guide, TC 31507.010.A.

Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)   2
                                                            Results of Review
To obtain applicants’ perceptions of the iClaim application and determine whether
applicants filing for RIB using the iClaim application were receiving an appropriate level
of service from SSA, we discussed their experiences with 200 applicants who filed an
RIB iClaim application in May 2010. 5 Based on our discussions, we determined that
applicants had a positive perception of the RIB iClaim application process. In fact,
198 of the 200 applicants identified
their experience filing online to be             Chart 1: Overall Experience with the
excellent, very good, or good, with                          iClaim Application
almost half providing the top rating of
excellent (see Chart 1). 6 One applicant
stated that the iClaim application was                                   Very Good
as easy as could be, and that, if a                                      82 (41.2%)

person of his age—who did not grow
up with the Internet—could do it, he did          Excellent
                                                  99 (49.7%)
not see how any future generation
would have any problems. Another                                                            Good
applicant said, “The application and the                                                  17 (8.5%)

process was very easy and saved a lot                                                 Fair
of time….”                                                                          1 (0.5%)


Furthermore, the majority of the applicants found the iClaim very easy to navigate and
understood the questions asked of them in the iClaim application as well as the
instructions for submitting supporting documentation to SSA. In addition, we found that
some applicants in our review were contacted by an SSA employee when it was
necessary to obtain more information or clarification of information in the iClaim
application.




5
    See Appendix B for a detailed discussion of the scope, methodology, and sample results for our review.
6
 One applicant ended the call before rating his experience filing online. Therefore, Chart 1 only includes
199 of the 200 applicants. The applicant who felt the iClaim application was fair stated that the earnings
questions were confusing and the application was difficult to navigate.

Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)             3
NAVIGATING THE ICLAIM APPLICATION
The majority of the applicants in our review stated that the iClaim was very easy to
navigate. Specifically, 193 of the 200 applicants rated their ability to navigate the iClaim
as very easy or somewhat easy (see Chart 2). 7

In addition, 49 (24.5 percent) of the                          Chart 2: Navigating the iClaim
200 applicants saved their progress on
the iClaim application and completed it
at a later time. All 49 of these                                Very Easy
applicants stated it was very easy or                              132
                                                                 (66.0%)                   Somewhat
easy to return to the application.                                                            Easy
Furthermore, there were 36 (18 percent)                                                    61 (30.5%)
applicants who changed their answers
after reviewing the information they had
entered into the iClaim application. Of
these 36 applicants, 32 (88.9 percent)                                                Somewhat
indicated that it was either very easy or                                                Hard
easy to make the changes. 8                                                            7 (3.5%)


The results of our review show that, from a customer service perspective, SSA had
made the iClaim application easy to navigate for applicants filing for RIB via the Internet.

UNDERSTANDABILITY OF THE ICLAIM APPLICATION
                                                            Chart 3: Marriage History and
The majority of the applicants                              Dependent Children Questions
indicated that they understood the
questions asked on the iClaim
application. In fact, 195 of the                                 Very Easy
                                                                    145
200 applicants responded that                                                       Somewhat
                                                                  (72.5%)
                                                                                       Easy
answering the questions about                                                       50 (25.0%)
general information for their claim,
such as marriage history and
dependent children, was somewhat
easy or very easy (see Chart 3). 9
                                                                 Did not                       Somewhat
                                                                                  Very
                                                                  recall                          Hard
                                                                                  Hard
                                                                 1 (0.5%)                       3 (1.5%)
                                                                                1 (0.5%)
7
 The seven applicants who felt the iClaim was somewhat hard to navigate cited various reasons for the
difficulty. Specifically, three applicants found the formatting hard to navigate; two applicants felt the
wording made it hard to understand where to go; one applicant felt the navigation was slow; and one
applicant had difficulty operating the computer.
8
  All four applicants who felt it was hard or very hard to make changes to information already entered into
the iClaim application stated that they had trouble figuring out how to make the changes.
9
  Of the five remaining applicants, one did not recall the understandability of the questions. The
remaining four applicants felt answering the general information questions was somewhat hard or very
hard because they had difficulty remembering the requested information. The applicants’ inability to
remember the requested information is beyond SSA’s control.

Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)                 4
In addition, 184 of the 200 applicants responded that it was somewhat easy or very
easy to understand the questions about their work history and earnings (see Chart 4). 10
One applicant stated, “All the questions were very straightforward. The key is that you
need to be sure you have all the needed information with you while you are filing.”

While working on the iClaim, some                                   Chart 4: Work History and
applicants requested additional help or                               Earnings Questions
accessed supplementary information to
answer some questions. Specifically,
we found that 123 applicants used the                           Very Easy
available online help links to get                                 107
                                                                                            Somewhat
additional information when answering                            (53.5%)
                                                                                               Easy
some of the questions, and                                                                  77 (38.5%)
19 applicants contacted SSA for
assistance. 11 When asked why they
sought help, participants most often
responded that they had questions                            Did not               Somewhat
about eligibility or needed clarification of                  Recall                  Hard
issues related to earnings and month of                      3 (1.5%)               13 (6.5%)
election.

Furthermore, we found that the applicants understood the instructions for submitting
supporting documentation to SSA. In fact, of the 54 applicants who were asked to
submit documents, 100 percent felt that the instructions explaining which documents
were needed and how the documents should be provided to SSA were very clear or
somewhat clear.

The results of our review show that, from a customer service perspective, SSA had
made the questions asked in the iClaim application easy to understand for applicants
filing for RIB via the Internet.




10
  The 13 applicants who felt answering work history and earnings questions was somewhat hard cited
various reasons for the difficulty. Specifically, two applicants felt that the wording was confusing. In
addition, six applicants had difficulty estimating their earnings; three applicants had difficulty remembering
their work history; and two applicants did not have the necessary documentation available. The
applicants’ inability to provide the requested information is beyond SSA’s control.
11
  If applicants need more detailed information, “More Info” or “Things to Consider” buttons that link to
“Help” screens are available after most questions in the iClaim application. In addition, applicants can
use online links to access SSA’s Retirement Estimator to help estimate different benefit amounts based
on when they want to start receiving RIB. Of the 200 applicants in our review, 32 used only the help links,
52 used only the Retirement Estimator, and 39 used both the help links and the Retirement Estimator.

Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)                5
SSA RE-CONTACT WITH APPLICANTS
There are some circumstances where it is necessary for an SSA employee to re-contact
an applicant for more information, or clarification of information, in the iClaim application
before the iClaim can be processed. 12 Of the 200 applicants in our review,
67 (33.5 percent) recalled being re-contacted by an SSA employee after submitting their
iClaim application. According to the applicants, the employees re-contacted them
predominately for two issues—work and earnings or auxiliaries 13 (see Table 1).


                              Table 1: Reasons for Re-contact 14
                            Re-contact Issue                 Applicants
                        Work and Earnings                  21         31.3%
                        Auxiliaries                        14         20.9%
                        Did not Recall                     12         17.9%
                        Month of Election                  11         16.4%
                        Needed Documentation                4          6.0%
                        Military Information                4          6.0%
                        Confirm Identity                    1          1.5%
                        Medicare                            1          1.5%
                                             Total         68        101.5%


We did not review the accuracy of the iClaim applications processed for the applicants
in our review. Therefore, we cannot conclude that SSA made all necessary re-contacts.
However, our review does provide evidence that SSA is following up with applicants to
obtain additional information or clarification of information in the iClaim application.




12
 We are completing a review, Retirement Internet Claim Applications (A-07-10-20165), that will provide
more in-depth information about reasons for employee re-contact.
13
  SSA, POMS, GN 03301.002.B. An “auxiliary” is someone entitled to benefits based on someone else’s
work record, by virtue of relationship to the applicant, such as a spouse or child.
14
  The total number of reasons applicants were re-contacted is greater than the number of applicants who
were re-contacted because one applicant was re-contacted for two reasons. Therefore, the total
percentage of applicants who were re-contacted for various reasons is also greater than 100 percent.

Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)          6
                                                                  Conclusions
During our discussions with the applicants in our review, no comments were made that
indicated applicants filing for RIB using the iClaim application did not receive an
appropriate level of service from SSA. In fact, we found that applicant satisfaction with
the RIB iClaim application was extremely high. Specifically, 99 percent of the applicants
found their overall experience filing online to be excellent, very good, or good.

The majority of the applicants responded that the iClaim application was easy to
navigate, and the questions asked in the application were easy to understand. In fact,
we found only a small percentage of the applicants in our review needed to contact SSA
for assistance or information. Instead, the applicants used the available online help
links to get more information when needed. Furthermore, we found that SSA is
following up with applicants to obtain additional information or clarification of information
in the iClaim application.




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)   7
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology, and Sample Results




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)
                                                                           Appendix A

Acronyms
 FY                 Fiscal Year

 iClaim             Internet Claim

 OIG                Office of the Inspector General

 POMS               Program Operations Manual System

 Pub. L. No.        Public Law Number

 RIB                Retirement Insurance Benefits

 SSA                Social Security Administration




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167)
                                                                                Appendix B

Scope, Methodology, and Sample Results
To achieve our audit objective, we:

    •   Reviewed applicable Federal laws and regulations as well as Social Security
        Administration (SSA) policies and procedures pertaining to the Internet claim
        (iClaim) application process.

    •   Reviewed prior Office of the Inspector General reports related to SSA’s electronic
        services.

    •   Obtained a data extract from SSA of 64,785 retirement insurance benefits (RIB)
        iClaim applications filed in May 2010. 1

    •   From the data extract, we selected a random sample of 250 RIB iClaim
        applications. For each iClaim application, we:

             Mailed applicants up to two letters regarding our review.
             Called the applicants up to three times.
             For those we were able to contact, recorded any information they provided
              regarding their experiences using the iClaim.
             Completed discussions with 200 of the 250 applicants in our sample. For
              the 50 applicants who did not have a discussion completed,
                      37 were unable to be contacted, and
                      13 declined to participate.

Our work was conducted at the Office of Audit in Kansas City, Missouri, from May
through December 2010. The entity reviewed was the Office of Operations. We
determined that the data used in this report were sufficiently reliable given the objective
and their intended use. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.




1
 SSA’s Management Information Report for May 2010 reported 67,502 RIB iClaim applications filed in
May 2010. Therefore, the data extract contained 2,717 applications fewer than SSA identified. However,
we considered the 4 percent difference immaterial.


Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167) B-1
SAMPLE RESULTS

                 Table B-1: Ability to Navigate the Online Application
                                                                         Applicants
  Very Easy                                                       132           66.0%
  Somewhat Easy                                                    61           30.5%
  Somewhat Hard                                                     7             3.5%


        Table B-2: Ability to Make Changes to Information Already Entered
                                                                         Applicants
  Very Easy                                                         21          58.3%
  Easy                                                              11          30.6%
  Hard                                                               3            8.3%
  Very Hard                                                          1            2.8%


                     Table B-3: Ability to Return to the Application
                                                                         Applicants
  Very Easy                                                         34          69.4%
  Easy                                                              15          30.6%


     Table B-4: Ability to Answer Questions About Work History and Earnings
                                                                         Applicants
  Very Easy                                                       107            53.5%
  Somewhat Easy                                                    77            38.5%
  Somewhat Hard                                                    13             6.5%
  Did Not Recall                                                    3             1.5%


         Table B-5: Ability to Answer Questions About General Information
                                                                      Applicants
  Very Easy                                                       145        72.5%
  Somewhat Easy                                                    50        25.0%
  Somewhat Hard                                                     3          1.5%
  Very Hard                                                         1          0.5%
  Did Not Recall                                                    1          0.5%




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167) B-2
          Table B-6: Factors Considered When Choosing the Date to Start
                                Receiving Benefits
                                                                       Applicants
  Wanted Benefits as Soon as Possible                              107        53.5%
  Work Status                                                       23        11.5%
  Age                                                               19          9.5%
  Other Income                                                      17          8.5%
  No Specific Answer Given                                          13          6.5%
  Personal Financial Situation                                      11          5.5%
  Benefit Amount                                                     8          4.0%
  Health Issues                                                      2          1.0%
  Did Not Recall                                                     2          1.0%


                Table B-7: Accessing Supplementary Information
                                                           Applicants
  Used Only Retirement Estimator                        52        42.3%
  Used Both Help Links and Retirement Estimator         39        31.7%
  Used Only Help Links                                  32        26.0%


                        Table B-8: Reasons for Contacting SSA
                                                                       Applicants
  Did Not Recall                                                      4        21.0%
  Eligibility Question                                                4        21.0%
  Choosing When to Start Benefits                                     3        15.8%
  Earnings Question                                                   3        15.8%
  Understanding the Meaning of Some Questions                         2        10.5%
  Determining How to Answer a Question                                1         5.3%
  Wasn't Sure What to do Next                                         1         5.3%
  Made a Mistake and Could not Fix It                                 1         5.3%


    Table B-9: Clarity of Instructions About Providing Documentation to Social
                                       Security
                                                                         Applicants
  Very Clear                                                        41           75.9%
  Somewhat Clear                                                    13           24.1%




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167) B-3
           Table B-10: Reasons for Contact by Social Security Employees
                                                               Applicants
  Work and Earnings                                         21        31.3%
  Auxiliaries                                               14        20.9%
  Did Not Recall                                            12        17.9%
  Month of Election                                         11        16.4%
  Needed Documentation                                       4          6.0%
  Military Information                                       4          6.0%
  Confirm Identity                                           1          1.5%
  Medicare                                                   1          1.5%


         Table B-11: Rating of Social Security’s Internet Claim Application
                                                                       Applicants
  Excellent                                                          99        49.8%
  Very Good                                                          82        41.2%
  Good                                                               17         8.5%
  Fair                                                                1         0.5%




Applicant Experiences with Retirement Insurance Benefit iClaim Applications (A-07-10-20167) B-4
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
